<html>
<title> - [H.A.S.C. No. 111-169]REVIEW OF ARMY INVESTIGATION OF ARLINGTON NATIONAL CEMETERY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-169]

      REVIEW OF ARMY INVESTIGATION OF ARLINGTON NATIONAL CEMETERY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 30, 2010




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  58-231                   WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  








                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          DUNCAN HUNTER, California
NIKI TSONGAS, Massachusetts          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  MIKE COFFMAN, Colorado
CHELLIE PINGREE, Maine               THOMAS J. ROONEY, Florida
LARRY KISSELL, North Carolina        TODD RUSSELL PLATTS, Pennsylvania
MARTIN HEINRICH, New Mexico          CHARLES K. DJOU, Hawaii
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
JOHN GARAMENDI, California
MARK CRITZ, Pennsylvania
LEONARD BOSWELL, Iowa
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia

                     Paul Arcangeli, Staff Director
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                      James Weiss, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, June 30, 2010, Review of Army Investigation of 
  Arlington National Cemetery....................................     1

Appendix:

Wednesday, June 30, 2010.........................................    33
                              ----------                              

                        WEDNESDAY, JUNE 30, 2010
      REVIEW OF ARMY INVESTIGATION OF ARLINGTON NATIONAL CEMETERY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

McHugh, Hon. John M., Secretary of the Army......................     4
Whitcomb, Lt. Gen. R. Steven, USA, Army Inspector General, U.S. 
  Army...........................................................     6

                                APPENDIX

Prepared Statements:

    McHugh, Hon. John M..........................................    40
    McKeon, Hon. Howard P. ``Buck''..............................    39
    Skelton, Hon. Ike............................................    37
    Whitcomb, Lt. Gen. R. Steven.................................    48

Documents Submitted for the Record:

    Statement of the Reserve Officers Association................    59

Witness Responses to Questions Asked During the Hearing:

    Mr. Courtney.................................................    65

Questions Submitted by Members Post Hearing:

    Mr. Critz....................................................    73
    Mr. Ellsworth................................................    72
    Mr. Kissell..................................................    73
    Mr. Miller...................................................    72
    Mr. Owens....................................................    73
    Mr. Reyes....................................................    70
    Mr. Thornberry...............................................    69
 
      REVIEW OF ARMY INVESTIGATION OF ARLINGTON NATIONAL CEMETERY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 30, 2010.
    The committee met, pursuant to call, at 10:30 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Our hearing will come to order.
    I have been told we will be having a series of four votes 
on the House floor in the very near future, but Mr. McKeon and 
I think it is best to proceed and go as far as we can. And if 
our witnesses will indulge us while we go over and vote, we 
will be back as quickly as possible to resume this very 
important hearing.
    Today our committee receives testimony about the management 
of Arlington National Cemetery (ANC). Our witnesses include the 
Honorable John McHugh, Secretary of the Army; and Lieutenant 
General Steven Whitcomb, Inspector General (IG) of the Army. We 
welcome you both to the Armed Services Committee.
    I am angry, period. Anger is generally not a useful 
emotion, particularly here on Capitol Hill. However, in light 
of the recent revelations about the management of Arlington 
National Cemetery, I am just downright angry.
    Arlington Cemetery is our nation's most hallowed ground. It 
is reserved as the final resting place of our heroic warriors. 
Management ineptitude and neglect has resulted in a web of 
errors. How in the world could this tragedy be allowed to 
happen? Behind the facade of what appeared to be well-
orchestrated burial services, investigations now reveal a 
dysfunctional management team operating without any oversight.
    We all know people who are buried there, people who we 
respect, and people whose memory we hold dear. My next-door 
neighbor, Bill Hogue, is buried there. Every American, whether 
they have a loved one buried at Arlington or not should be 
outraged.
    Secretary McHugh, I know you have already done much to 
right this wrong, but I cannot understand how the Army has 
allowed the problem to fester for years. There is clear 
evidence that in 1992, the Army was aware of a level of 
leadership discord at Arlington that would not have been 
tolerated in any other organization. The situation cried out 
for intervention, but the Army's response was to further 
withdraw from Arlington Cemetery operations.
    Let me make clear that the uniformed service members who so 
proudly conduct the military honor ceremonies with such grace 
and precision are not part of the problem. We are so proud of 
these young men and women who continue to provide these 
ceremonies during these troubled times at Arlington Cemetery.
    Sadly, notwithstanding the efforts of the Army, the way 
forward offers many difficult challenges. Given the limited 
nature of the investigation up until now, I am afraid that the 
200 irregularities associated with grave sites may be a 
fraction of the problem. We must be prepared that a 100 percent 
survey of the cemetery and all its operations, which I believe 
must now be undertaken, will yield a larger number of problems 
that must be addressed.
    The American people, and especially our military families, 
expect that those who wear the uniform of this nation and have 
made the ultimate sacrifice are afforded the most utmost 
respect and dignity even after death. They deserve no less.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 37.]
    The Chairman. Mr. McKeon, please.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Secretary McHugh, General Whitcomb, good morning and 
welcome. We look forward to your testimony here today.
    The recent revelations about the mismanagement and 
systematic failures at Arlington National Cemetery are both 
profoundly shocking and heart-wrenching. Arlington National 
Cemetery is hallowed ground, and its sacred hills serve as the 
final resting place for thousands of our nation's heroes. 
Families demand, and most importantly deserve, to know that 
their loved ones are being treated with the utmost respect and 
decorum. To now learn that the Army was aware of some of these 
problems for nearly 20 years and took no corrective action is 
extremely disappointing.
    With that said, I commend Secretary Geren and Secretary 
McHugh for directing a comprehensive and thorough investigation 
into the matters at Arlington, forthrightly acknowledging the 
Army's mistakes, and taking the necessary steps to restore the 
public's confidence in the Army's stewardship of this sacred 
ground.
    I am committed to work with Secretary McHugh, Chairman 
Skelton, and all of our colleagues to ensure systems and 
processes are in place that will make certain these errors are 
never repeated and those responsible are disciplined 
appropriately.
    Among the most concerning findings of the inspector general 
is the nearly complete failure to comply with federal, defense, 
or Army acquisition regulations for services and property 
procured by Arlington National Cemetery. The evidence provided 
by the IG goes far beyond inadvertent noncompliance by 
overworked contracting officers. I find these practices to be 
unacceptable, particularly given the renewed emphasis on 
contracting best practices, and ensuring our business systems 
deliver value for the war fighter and taxpayer as highlighted 
by the Army's Gansler Commission, last year's Acquisition 
Reform Act, and the improved Acquisition Act recently passed by 
the House.
    While Secretary McHugh has directed a review of all 
contracts awarded during the past five years in support of the 
Army national cemeteries, I believe the review must go further 
to ensure that the Army stops responding to contract failures 
in merely a reactionary mode. I am hopeful that the testimony 
will address these concerns and the progress of the Department 
in investigating any criminal conduct on the part of the 
contracting officers and agencies.
    It also appears that once again the Army has failed to 
recognize the dramatic increase in mission of its supporting 
organizations since the start of the war on terror. The 
cemetery's workload has understandably increased as more of our 
World War II and Korean War veterans pass on, in addition to 
the casualties from Iraq and Afghanistan. What is surprising is 
that the staff at Arlington has steadily decreased, and until 
this investigation became public, there was pressure to cut 
civilian personnel even further.
    It is clear that efforts to achieve economies at the 
cemetery have led to a breakdown in the mission with disastrous 
results. Thankfully, the dedicated staff at Arlington is able 
to carry out their mission despite inadequate manning and 
longstanding leadership failures, and they deserve our 
gratitude.
    Lastly, I believe that to achieve a complete and accurate 
accounting for all of the graves and remains at Arlington 
National Cemetery will require a massive effort and a 
considerable amount of resources and time. My concern is 
whether the Army, with all of its competing missions, is 
committed to accounting for all 330,000 individuals interred at 
Arlington National Cemetery. I am hopeful that you can provide 
that assurance to this committee.
    Once again, thank you for being here today, and I look 
forward to your testimony.
    I yield back, Mr. Chairman, and request that my full 
statement be entered into the record.
    The Chairman. Without objection. We thank the gentleman 
from California.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]
    The Chairman. Before we get started, I ask unanimous 
consent that a statement from the Reserve Officers Association 
be entered into the record. And it will be taken without 
objection.
    [The information referred to can be found in the Appendix 
on page 59.]
    The Chairman. I also ask unanimous consent that 
Representative Bobby Rush be allowed to participate in the 
hearing and ask questions under the five-minute rule following 
the members of the committee. Without objection.
    Mr. Secretary, I understand that you have a commitment. We 
hope, in light of the fact that we have a few votes this 
morning, you can stretch that to give us a few extra minutes, 
and we will do our best to work with you on that. So let us 
move as quickly as we can in our questioning, and we call on 
Secretary McHugh. We welcome you back.

    STATEMENT OF HON. JOHN M. MCHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. Thank you, Mr. Chairman.
    Let me assure you, in response to your very reasonable 
request, we will do everything we can to provide as much time 
as possible for questions of the committee members. As I think 
you probably understand, I have a great appreciation for the 
role of this committee, and I want to do everything I can to 
facilitate and support its very important oversight role, 
particularly in a matter such as this.
    I do, however, want to truncate my statement a bit. I had a 
rather lengthy one, and I thought it was appropriate given the 
very grave nature--no pun, I am sorry--very serious nature of 
this issue, but time is more important in the exchange, so I 
will try to be somewhat brief.
    Let me assure you, Mr. Chairman, for all the anger I know 
you and every member of this committee feels, I share. When I 
was afforded the honor and the opportunity to serve as 
Secretary of the Army, the last thing I ever envisioned was 
facing an issue such as this. But shortly after my arrival in 
the building late in September, I learned of a review ordered 
by my predecessor, former member of this committee, Secretary 
Pete Geren, asking the inspector general to examine the 
cemetery's policies and procedures; its management, 
administration and coordination processes; as well as its 
command and leadership structures.
    On November 12, Inspector General Steven Whitcomb advised 
me of the progress of that inspection, and based on the things 
I heard then and some other information that had come to my 
attention, I ordered the expansion of that to include an 
examination of ANC's information technology and assurance 
programs of its contracting procedures. I also ordered the 
inspector general to conduct a full-scale investigation into 
allegations of a hostile work environment; inappropriate hiring 
practices; improper interment, transinterment, and inurnment of 
the remains; and noncompliance with internal regulations, 
policies, and accountability errors.
    As I think everybody knows, on June 8 of this year, 
Lieutenant General Whitcomb submitted his reports, containing 
76 factual findings and making 101 recommendations for 
improvements at ANC. And you know the findings of that. I have 
tried to be as transparent as possible. We posted all of the 
inspection reports that evolved out of these particular efforts 
and all the attendant orders that I gave in response to those. 
But in short, what General Whitcomb found was a system that 
suffered from dysfunctional management, a lack of established 
policies and procedures, an unhealthy organizational climate, 
numerous errors in the accountability of remains, as well as 
the now rightfully infamous 211 discrepancies between burial 
maps and grave sites. Those demanded immediate action, and upon 
receipt of the inspector general's reports, I directed the 
entire restructuring of ANC's leadership, administration and 
oversight.
    Just if I may, Mr. Chairman, to go through the major points 
of those orders, I ordered the rescission of Army General Order 
(GO) 13, which had created a fractured, unmanageable oversight 
structure for the cemetery. I ordered the creation of a 
position of Executive Director of the Army National Cemeteries 
Program to provide direct leadership and management, as well as 
the appointment of Ms. Kathy Condon as that Executive Director, 
who is one of our most capable, experienced and senior 
executives, to follow forward.
    I called for the establishment of the ANC Provisional 
Oversight Group to support the Executive Director in the 
restructuring of cemetery operations and to make the 
corrections in deficiencies unveiled in the IG's report. I 
ordered the creation of the Army National Cemeteries Advisory 
Commission to provide independent oversight and regimented 
review of near- and long-term activities at ANC. As I know many 
of you are aware, former Senator Bob Dole and former Senator 
Max Cleland have graciously agreed to assist us in the 
establishment of this key strategically focused group.
    I reached out to my friend and now my colleague, the 
Secretary of the Veterans Affairs Department, Eric Shinseki, 
former Chief of Staff of the Army, for assistance. He detailed 
Patrick Hallinan, Director of the Office of Field Programs for 
the National Cemetery Administration. And through the gracious 
support of Secretary Shinseki and also the efforts of Mr. 
Hallinan, we are finding a better way forward.
    I ordered an all-inclusive study of ANC's organizational 
structure, manpower equipment requirements and workload to 
better ensure we have the right resources, personnel, and 
capabilities to meet the cemetery's growing mission.
    These are just a few of the steps I have taken. I have also 
ordered full audits of all the contracts. We don't know what we 
don't know, but we are working hard every day to find out 
everything that is possible as to the who, why, and what behind 
the failures, particularly in procurement and particularly in 
contract and contract management.
    For 146 years, Mr. Chairman, the Army has, I think, proudly 
served in the administration of this hallowed ground, as you so 
rightfully put it. Clearly, as the inspector general's report 
has found, in recent days, perhaps even in recent years, we 
have lost that commitment and that record of success. I want to 
pledge to this committee, more importantly both to the American 
people and the men and women who wear the uniform of this great 
nation and those who love and support them, that the Army is 
doing and will continue to do everything necessary and possible 
to right these unimaginable and unacceptable wrongs. We are on 
our way. I think we have the process that will hopefully solve 
many of the problems that have been unveiled with respect to 
yesterday and set us on a better path for tomorrow.
    With that, Mr. Chairman, I rely upon my written statement 
and its submission to complete the record, and I would yield 
back.
    The Chairman. Without objection, the entire statement will 
be placed in the record.
    [The prepared statement of Secretary McHugh can be found in 
the Appendix on page 40.]
    The Chairman. General Whitcomb, thank you for being with 
us.

 STATEMENT OF LT. GEN. R. STEVEN WHITCOMB, USA, ARMY INSPECTOR 
                       GENERAL, U.S. ARMY

    General Whitcomb. Thank you, Chairman and Ranking Member, 
and distinguished members of the House Armed Services 
Committee. And thank you for the opportunity to appear before 
you to discuss our investigation and our inspection into the 
issues at Arlington National Cemetery.
    Secretary McHugh has explained the genesis of our 
inspection and related investigation into the matters, and I 
ask that my further comments be submitted as a matter of 
statement in the record.
    What I would say, sir, is that while our findings raised 
very serious issues that we all are aware of and that require 
significant remedial actions that the Secretary has outlined, I 
would like to make it clear and assure our folks that the ANC 
employees, working under an extraordinarily high operational 
tempo, lack of leadership, lack of a forward vision and 
thinking, still manage to serve our soldiers, honor our 
families, and honor all Americans with first-class burials, 
ceremonies, and ceremonies by senior leaders of our nation. 
That commitment never faltered under these extraordinary 
conditions, and our job and our commitment as an Army is to 
ensure that the resources are applied; that these men and women 
that serve our fallen so honorably have what they need when 
they need it to keep that tradition that we have followed for 
so many years.
    Mr. Chairman, and members of the committee, thank you for 
your continued support for our soldiers, sailors, airmen, 
Marines, coasties, and the civilians that support our nation, 
and I look forward to your questions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    [The prepared statement of General Whitcomb can be found in 
the Appendix on page 48.]
    The Chairman. Mr. Secretary, can we in this committee 
expect an audit of all--that is, 100 percent--of the cemetery 
grave sites with the use of technology and data that is modern 
and up to date? Where are we on that?
    Secretary McHugh. Mr. Chairman, we have already begun to 
examine the record and the circumstances with the 211 graves 
that the inspector general identified. We have resolved about 
26 of those thus far. But as your question, as framed, 
suggests, it is a very laborious process under the current 
procedures available.
    It is our intent to do exactly what you suggested, check 
the three sources of records currently available, that is, the 
site map, the actual burial cards and records that are 
contained in paper, against tombstones and actual documentation 
associated with those. To do that for some 330,000 graves is 
going to take a better system of recordkeeping, and that means 
the best in information technology (IT).
    I have directed the Army CIO/G-6, which is the technology 
experts for the United States Army, to engage at Arlington, to 
begin to identify the processes by which we need to move 
forward to have that done as quickly as possible. I would say 
as well that, through the generosity and graciousness of many 
private sectors, including Senator Warner and his support of a 
consortium of Northern Virginia technology interests, we are 
exploring the possibility of assistance from the outside to 
facilitate and accelerate that to the greatest extent possible. 
There are some legal issues there with prohibitions and certain 
fashions for accepting outside gifts, but if we can work that 
out, we will use those resources as well. So as soon as the IT 
problems are solved, we will begin the process of checking and 
crosschecking all of those records for each of the 330,000-some 
graves.
    The Chairman. Mr. Secretary, in the course of your review 
of the situation, have you encountered information that would 
explain why the Army didn't replace the leadership team, the 
civilian leadership team, in Arlington, because the Army 
obviously was well aware of the dysfunctional relationship 
between the Superintendent and his deputy.
    Secretary McHugh. We can speculate, some with some reason 
and others with not so much certainty, Mr. Chairman.
    I think it is important to show that the last inspection in 
1997 did have follow-on that has not been widely reported. The 
Commanding General (CG) of the Military District of Washington 
(MDW) after that report did indeed counsel the Superintendent 
and Deputy Superintendent, which, as I know you are aware, is 
the standard procedure for first addressing those issues. There 
were also follow-on inspections that certainly the Inspector 
General is far better positioned than I to detail in 1998 and 
1999. So there were some efforts.
    As to how it was allowed to continue for so long, I think 
one of the major issues centers around General Order 13. I can 
speculate that I think there was probably a wealth of good 
intentions behind that general order. I suspect what motivated 
it, at least in some measure, was an interest in providing 
Arlington as much support as possible, but the net effect, as I 
read it was by placing everyone in charge, no one was in 
charge. There was, I think, legitimate questions as to who was 
the controlling authority. There were no clear lines of 
exercising that authority, and, therefore, at least in part, 
the circumstances were allowed to continue.
    But having said that, for whatever the reasons, it should 
never have happened. What we are trying to do now is take the 
steps necessary to set the path more clearly in the future, 
rescind the GO 13, restructure the administrative processes, 
and the lines of authority are pretty clear through the 
Executive Director right to my desk. It is not exactly probably 
optimum, but this is, I think, an immediate response, and 
certainly as we go forward, we will examine alternatives to 
administrative structure as may be appropriate.
    The Chairman. This brings the question to mind, should the 
Army continue its responsibility for managing Arlington 
Cemetery, or should it be given to some other agency?
    Secretary McHugh. Well, Mr. Chairman, as you know, those 
questions are for the Congress and the President to answer. I 
can give you my personal perspective. I can think of any number 
of agencies--and there are several who are involved in cemetery 
operations--I will tell you that, like the Army, perhaps for 
different reasons, all of those agencies are stressed as well. 
And while I cannot speak for the heads of those agencies, I am 
not sure the fair thing to do is to burden others because of 
the shortcomings of the United States Army.
    As I mentioned, 146 years, there are many reasons, most 
important of which is that ground is the final resting place of 
America's greatest heroes. But I do believe over that nearly 
century and a half, the Army has helped to polish that 
reputation. Clearly that record has been tarnished. We are 
committed fully to regaining that kind of record into the 
future, and I am going to work as hard--and the people that we 
have brought into this initiative will work as hard as possible 
to restore what we consider an Army problem.
    I would note as well, Mr. Chairman, this is the final 
resting place of veterans, but we are in a special 
circumstance. Nearly half of the heroes who are interred in 
Arlington in this current era are of Army. And I can't speak 
for the other services, but I wouldn't be surprised if they 
were to feel very strongly as well, we feel it is the 
responsibility of the military, particularly in time of war, to 
carry those heroes to their final resting place, and we feel 
very strongly about that.
    I fear, if I may, as a former member of this committee for 
17 years, that moving jurisdiction from this committee 
elsewhere would have certain considerations that would need to 
be carefully considered, with all due respect. But again, until 
we are ordered to step down, we are going forward.
    The Chairman. Thank you very much.
    We are running out of time. Mr. McKeon, go ahead and start. 
And if you have to finish when we come back, we will do just 
that.
    Mr. McKeon. Thank you, Mr. Chairman.
    As I alluded, Mr. Secretary, in my opening statement, I am 
concerned that the review of Army National Cemetery contracts 
may not go far enough. While it is not conducive to best 
practices, it is understandable that an operation like 
Arlington National Cemetery would not have significant in-house 
acquisition expertise and would rely on other Army commands for 
contracting support.
    The cemetery relied heavily on the U.S. Army Corps of 
Engineers and the Army's Contracting Center for Excellence for 
contract award administration. These two organizations should 
have substantial depth and experience in contracting, yet in 
instance after instance, the contracting officers failed to 
comply with the most basic of federal contracting regulations, 
and for that matter with plain common sense. They frequently 
failed to verify that contractors receiving noncompetitive 
awards were capable of performing on the contracts. They 
awarded contracts to contractors with cost proposals over 
double the amount that was estimated to perform the work. They 
awarded contracts for information technology services to 
contractors who didn't have any qualifications or training to 
perform it. Most contracts contained no determination that 
practices were fair or reasonable. When proposals had 
typographical errors, contracting officers just rounded the 
numbers down to make the bids more advantageous. They violated 
procurement integrity laws by revealing sensitive information. 
The list goes on.
    I find it implausible to believe that contracting officers 
for the Corps of Engineers and the Contracting Center of 
Excellence reserved this sloppy work for just Arlington 
National Cemetery. Therefore, my two-part question is: What 
steps is the Army going to take to ensure that other contracts 
awarded by these two contracting officers, not just those for 
Arlington, are in compliance with federal and defense 
regulations and are protecting the interests of the American 
taxpayer? And number two, have the contracting officers 
involved had their warrants suspended or revoked, and what 
remedial training is being put in place now to avoid further 
violations of this law?
    Secretary McHugh. As I know you understand, Congressman 
McKeon, the Army is bound by requirements of due process to 
fill the record before we take any disciplinary actions, 
including suspension of warrants. I would agree with you fully 
that where we are right now should not be the end in terms of 
reviewing the contracts, and I assure you it is not. What we 
need to do and what we are doing is to establish a factual 
basis and fill in what is currently missing, and that is the 
vast--what would normally be considered required paper trail as 
to the structuring of those contracts, and how they were 
reviewed, and what procedures were used or not used in that 
process.
    The Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology (ASAALT) has been directed by me to 
examine those contracts. They are being supported from my 
direction by the Army Auditing Agency. We are very hopeful that 
that will provide us a much clearer understanding of what, if 
any, failures were committed; which, if any, malfeasance 
existed; and as you have heard mentioned here earlier this 
morning, the Criminal Investigation Division is being provided 
all those materials, and they will make those determinations 
not just against particular contracting officers, but wherever 
that trail may take us.
    So this is, for us, the beginning of a process. We have 
laid it out, it is already under way, and I promise you we are 
going to pursue it to its end.
    The Chairman. Mr. McKeon, may we resume with your questions 
upon the completion of the votes, and then we will go on to 
others?
    We will recess until we return.
    [Recess.]
    The Chairman. The gentleman from California, Mr. McKeon, 
has finished his questioning. We will now go to Mr. Ortiz from 
Texas. We are under the five-minute rule.
    Mr. Ortiz. Thank you, Mr. Chairman, Secretary McHugh, it is 
good to see you again. I want to welcome you to your old 
committee. With you at the helm, I know things are going to 
work out.
    General Whitcomb, it is always a pleasure to have you back 
here. Thank you for your honest and frank dialogue.
    With a significant number of mismarked and unmarked graves, 
what is the Army doing to reach out to the families of the 
deceased warriors, service members? And what is the Army doing 
to properly account for these unmarked or mismarked graves to 
actually mark the sites? And the report only focuses on the 
Arlington National Cemetery. Do you think that this problem 
exists in other areas? I know that we focus on Arlington, but 
we have cemeteries in many places--Morocco, Africa, Belgium--
and I hope this is not a widespread problem we have. But, if it 
is, I know you are going to look at it and take care of it. 
Maybe you can respond to my questions.
    Secretary McHugh. Thank you, Congressman.
    As I tried to lay out very briefly before, and I appreciate 
the chance to expand upon it a bit, our first objective is the 
211 graves that have been identified with map discrepancies. We 
are currently working through those. As I mentioned earlier, we 
have resolved 27 of those. Those will continue, and they have 
to this point been errors of mismarking on the so-called master 
map. We will each and every day match records.
    There is a three-part record system--the map, the burial 
cards that record the funeral, and the soldier, sailor, Marine, 
Coast Guardsman, or the family member involved against 
headstones where they exist. And where, for example, the map 
shows a grave and yet there is no record nor headstone, what we 
have done is actually unearthed, through a set procedure, and 
determined in each one of those thus far that indeed the map 
was in error, that there were no remains in those graves, and 
those graves will be reclaimed and used for appropriate 
purposes with a fallen hero at some time in the future.
    After that, we intend to proceed, in all likelihood, 
chronologically, most recent back. I think clearly those who 
have lost loved ones in recent years are more concerned and 
aware of this. But, at the end of the day, I should tell you 
that it is our intent, upon implementation of a truly viable 
computer and IT system, to run matches on all 330,000 of those 
graves and, where we find similar discrepancies, to begin the 
process of validating or finding out what the issues are with 
each one of those discrepancies.
    As to reaching out to the loved ones, on the first day we 
established--the first day of the announcement when I released 
the Inspector General's report, we established a call center. 
We announced the number for that call center; and as of the 
last count I had available, we had 867 calls into that center. 
Of those, we have resolved 169 of those cases. As we go 
forward, we are contacting each and every one of those persons 
who called and expressed concern to update them; and we will 
continue to do that until we have worked through the entire 
list.
    We are not at this time calling people who have not 
expressed concern to revalidate that indeed they don't have an 
issue. For the vast majority of family members, they feel--our 
conjecture is they feel confident. But where we do have 
expressions of concern, we work with those people directly, and 
we will continue to do that until we have answered every 
concern and loved ones' questions.
    Mr. Ortiz. My time is up, but my other question was going 
to be, as soon as you finish with this, you don't think that 
the cemeteries we have in foreign countries have problems like 
we encountered at Arlington National Cemetery?
    Secretary McHugh. I can't possibly know that. I can tell 
you that those cemeteries are operated, by and large, by the 
Veterans Administration and National Battle Monuments 
Commission. I guarantee you that they will take lessons learned 
from our experiences and apply them, also.
    The chairman of the Battle Monuments Commission, former 
Senator Max Cleland, has agreed to support us, as I mentioned 
in my opening statement, in constructing an advisory and 
oversight committee so he will be part of that process. And 
being the great leader that he is, I know he will take our 
experiences and utilize them to whatever end is necessary 
within their purview.
    The Chairman. I thank the gentleman.
    Mr. Conaway from Texas.
    Mr. Conaway. Thank you, Mr. Chairman. I don't have too many 
questions. One, I have great confidence in the team, Mr. 
Secretary and General, that you will see this through to the 
end; and I look forward to working with you on how we get that 
done.
    Are the remains--if you have to disinter someone, are the 
remains--is there identification with the remains that will be 
able to be used, or will they have to use DNA, or what do you 
anticipate if you have to unearth someone?
    Secretary McHugh. The short answer is yes to all of those. 
Each casket is, in theory, tagged on the outside; and you 
should be able to identify it. There are also more forensic-
oriented ways to identify an era or period.
    Family members--we had one instance where they contemplated 
disinterment because they felt that they had a very unique 
casket and they would be able to identify based on the 
appearance of the casket alone. We ultimately resolved their 
issue without going to that extent. But that would certainly be 
part of it.
    If we are so authorized and if it is necessary, we have not 
ruled out the possibility of actually opening caskets. 
Although, obviously, decomposition is an issue, there usually 
are identifiable articles in a casket of a particular loved 
one. And should it thereafter become necessary for DNA, 
assuming the proper authorizations are both executed and 
requested, that would be something that we contemplate. But we 
consider that a very extreme measure.
    Mr. Conaway. Certainly that is a last resort. You said 
authorized. Are there barriers that you need relief from in 
order to make all of that work? Assuming the worst case you had 
to go all the way to the end of that process, are there things 
that we need to do, just anticipating that?
    Secretary McHugh. I don't think that we need any additional 
legal authorities. The legal authorities are pretty clear. But 
it requires, obviously, as it well and should, that the 
designated next of kin, pursuant to the paperwork that each 
soldier submits as part of their service in the military, to 
request that validated up to a legal sufficiency.
    Mr. Conaway. One minor issue. Two weeks ago, there was a 
brief television expose; and they had at least a granite 
headstone material was discarded into a creek. Have you been 
able to resolve what that was?
    Secretary McHugh. To a certain degree. Apparently, prior to 
1994, I believe, it was accepted practice, not just in Army 
cemeteries but in other government-run cemeteries, to use 
damaged, excess gravestones for building material. In the case 
you mentioned, it was for bank and stream stability.
    Mr. Conaway. These were discarded headstones? This was just 
material that was used for headstones that were no longer 
suitable for that purpose?
    Secretary McHugh. There were actual headstones on graves 
that were discarded as excess. Just as an example, a soldier is 
buried, and his wife may pass at a later time. You bury the 
wife with the soldier. You need a new headstone. The prior 
headstone becomes excess. And those were used.
    Our policy has changed. Since 1994, they are broken up and 
ground up and properly disposed of. Before, it was a widespread 
practice. And I am not sure how they justified it in their 
mind. It seems distasteful to me. But, as far as we know, there 
was no ill intent. It was just inappropriate use.
    Mr. Conaway. Again, Mr. Secretary, appreciate you being 
here and we have great confidence in your work and I yield 
back.
    Mr. Ortiz. [Presiding.] The Chair yields to Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you gentlemen 
for being here.
    General, I want to ask you a question, if I might. On March 
9 of this year, I sent a letter to the Inspector General of the 
Department of Defense (DOD) inquiring about alleged reprisals 
against Jennifer ``Gina'' Gray, the former Director of Public 
Affairs at Arlington National Cemetery, and yesterday received 
this report back dated June 29, Whistleblower Reprisal 
Investigation, Arlington National Cemetery, marked for official 
use only, and then the cover letter from the person in the 
Inspector General's office is also marked for official use 
only. So why don't you share with us what you can share with us 
about the results of that investigation against Ms. Gray?
    General Whitcomb. Yes, sir. Unfortunately, I can't share 
much. We received the same report late last night after work 
hours. I glanced at it this morning. The results of the 
investigation--the bottom line was that it found that the 
complainant was not reprised against, although she met the 
whistleblower standards for an investigation. But it was found 
she was not reprised against in her employment.
    I have not read the entire report in detail. Other than 
discussing it with DOD IG in terms of how long it would take 
them to complete their investigation and getting it last night, 
unfortunately, that is all I can provide to you.
    Dr. Snyder. Well, I think we are down to a position I 
consider that to be incomplete information and perhaps unfair 
to Ms. Gray. Is it inappropriate for me to read a portion from 
the cover letter? It is marked for official use only at the 
bottom.
    Or shall I phrase it another way? Has there been any 
instructions to Arlington National Cemetery to provide an 
appropriate remedy to Ms. Gray?
    General Whitcomb. No, sir, not that I'm aware of. Ms. Gray 
has ongoing litigation with the Department of the Army.
    Dr. Snyder. Let me do it another way. I have 2 minutes and 
59 seconds. I am going to have someone bring this letter to you 
and you can paraphrase it, given the restrictions that I am 
under. Can I do that?
    While he is doing that, Mr. Secretary, I wanted to ask, 
like Ms. Shea-Porter and Mr. Boren, we were attending an 
earlier hearing on the minerals management issue of another 
committee. As a legislative body--and you have been there 
before, too--we focus on incidents after we are very 
dissatisfied with what goes on. It is easy for us to say the 
Army didn't do this, recognizing the Army has much higher 
turnover in the position of authority that you are in than 
those of us on this committee. What role do we have in this? 
Where did we drop the ball as far as missing these red flags?
    Secretary McHugh. I don't want to characterize this 
committee as having dropped the ball. These problems were 
committed under the watch of the Army, and it is an Army 
responsibility.
    I would say, as we go forward, after such time as we have 
the opportunity to identify issues and to restructure 
ourselves, that it would be very helpful to have this 
committee, as part of its oversight processes, at presumably 
the subcommittee level, to have us in at a periodic time of 
your choosing to do the regular oversight hearings that this 
committee does so effectively in so many other operations of 
the military writ large.
    I think part of the problem that existed here, is that for 
all of the importance that the Army places on this, Arlington 
National Cemetery was somewhat of a satellite spinning off by 
itself. I ascribe part of that challenge or part of that 
reality coming out of I think the unhelpful construct of 
General Order 13, but it goes deeper than that.
    The Army has what are called DRUs, Direct Reporting Units. 
We have field agencies that, because of the nature of their 
structure, operate somewhat independently; and that has to be a 
part in this process on how we found ourselves where we did. I 
have ordered the Inspector General from this point forward to 
do biennial, twice-a-year inspections at those kinds of 
activities. But the more light on the process and the more eyes 
on the process the better. So to incorporate Arlington and the 
Army National Cemetery's program into your regular oversight 
function I would view as a very helpful step.
    Dr. Snyder. General, do you have any further comment to 
make?
    General Whitcomb. I can't comment on a DOD IG inspection, 
sir. I told you what I think the bottom line findings of it 
are. There is still ongoing litigation it would be 
inappropriate for us to comment on with Ms. Gray and the United 
States Army. I apologize I can't be more open.
    Dr. Snyder. I think you already made a comment that may not 
be a full picture of what occurred.
    Thank you, Mr. Chairman.
    The Chairman. [Presiding.] Thank you.
    Mr. Courtney.
    Mr. Courtney. I want to thank both witnesses for the 
response, which is focused and sincere in terms of trying to 
remedy this situation.
    Mr. Secretary, you described what the process is. If there 
are calls that come into the 1-800 number, that those families 
get attention and there is going to be an effort to work with 
them. And you also described the chronological process. So how 
does that work if a family member calls in with a concern? Does 
that sort of get moved up to the top of the list?
    Secretary McHugh. Yes, sir. We are trying to give priority 
in two places. The 211, which, by and large, are not identified 
so are unknown to the public. So, obviously, with almost 900 
calls, we have expressions of direct concern from individuals. 
We are responding to those with urgency.
    Mr. Courtney. So the calls are generally concerned that one 
of their loved ones was one of those 211?
    Secretary McHugh. Generally. Usually, the basis for that--
and I hate to broad-brush it because, obviously, every family 
member has his or her unique concerns, but, generally, it is 
because they were aware that one of their loved ones was 
interred in one of the sections cited in the report. Not 
exclusively, but understandably the majority of those are. As 
we solve one problem from a call, there is a likelihood that we 
are solving part of the 211 as well, although it is not one for 
one per se.
    Mr. Courtney. In one of the materials, it is a Vietnam-era 
area of the cemetery where problems were identified; is that 
correct?
    Secretary McHugh. I defer to the Inspector General.
    General Whitcomb. Sir, we don't have exclusive areas where 
we have located remains. Most areas, unless they are completely 
closed out for further burials, there is a general time frame, 
but there is not a Vietnam era area, there is not a Desert 
Storm area, not specific sections. But I believe one of the 
grave sites in question was from Vietnam.
    Mr. Courtney. That is helpful in terms of any of the calls 
we may get.
    Secretary McHugh. You do have section 60, which is, by and 
large, Iraq and Afghanistan; not exclusively but almost 
overwhelmingly.
    Mr. Courtney. Mr. Skelton mentioned at the outset that 
testimony had been submitted today by the Reserve Officers 
Association regarding a question of parity for guard and 
reserve fallen having access to the cemetery. Are you aware of 
that issue that they are raising?
    Secretary McHugh. I am not aware of the report. I wasn't 
aware they had submitted testimony until the chairman asked for 
its inclusion in the record.
    I can tell you just generically we would certainly not want 
to tolerate any discrepancies in treatment between a guard and 
a reservist who fell in theater versus an active. They are both 
equal heroes and serve equally. But if the committee would 
share those concerns with us, we would certainly very carefully 
consider them.
    Mr. Courtney. Your staff, I am sure, will have access to 
the testimony, but any written response you can give to the 
committee after this hearing about trying to eliminate any 
discrepancy I think a lot of us would be interested in hearing.
    Secretary McHugh. We will take a look at it.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Courtney. Thank you, Mr. Secretary.
    I yield back.
    The Chairman. I thank the gentleman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Mr. Secretary, 
General Whitcomb, thank you so much for joining us today.
    I want to begin by talking about what has been identified 
through almost a 20-year period as being a dysfunctional 
civilian command structure there at Arlington National 
Cemetery; and I guess the question is, knowing there has been 
this dysfunction there, why did that continue? Why was there 
continued lack of response by the Army or lack of an effort to 
try to fix that dysfunction with the civilian command? Is it 
something that the Army control structure wasn't set up to be 
able to do, or to identify, or to respond to? Can you give us 
some idea how that was allowed to continue to occur and for 
that dysfunctional organizational structure to continue?
    Secretary McHugh. I wish I had all of the answers to that, 
Congressman. A lot of this is conjecture. We are talking about 
back to 1997, 1992, so well over a decade; and a lot of the 
people who were directly involved are gone. There is no excuse 
why it happened. It was as unacceptable then as much as it is 
now.
    Part of the way forward for us is to try to restructure 
this organization writ large so it doesn't occur again. I have 
taken I think an important step in doing that in rescinding 
General Order 13. As I mentioned earlier in my comments, I 
think there was real confusion among the various agencies, be 
it Assistant Secretary of the Army for Civil Works (CW), or be 
it the Military District of Washington, and others, as to who 
had exact oversight authority. A well-intended but in my 
judgment not well-written general order was a part of it.
    I would note there were at least some attempts to address 
this issue, obviously not effectively enough. But I would defer 
to the Inspector General to kind of walk you through the 
responses that were taken, at least as we have been able to 
discover them. Again, not to justify any of this but just to 
kind of fill out the picture.
    General Whitcomb. Congressman, you are exactly right. What 
was identified in 1992 was a complaint by an employee that 
talked about the command climate, the management style at 
Arlington.
    In 1997, when the MDW, the Military District of Washington, 
Inspector General was directed by the Commanding General of MDW 
to do an organizational command climate assessment, that was 
further uncovered.
    A leader has several options once they discover a 
dysfunctional unit. You can counsel the individuals, you can 
discipline them, or you can ultimately relieve them if it is 
serious enough. There is evidence that the Commanding General 
of MDW in the general 1992 time frame, a different general 
officer, did in fact counsel the Superintendent and Deputy 
Superintendent. There is also evidence after the 1997 
inspection and assessment the new CG at MDW did the same thing, 
counsel them.
    I don't know what the written record was of that 
counseling, what the results are. There is no indication with 
either the Department of the Army Inspector General complaints 
or requests for assistance or with the MDW-IG that in the 
period from 1997 until the current time that there were 
complaints from employees requesting assistance due to the 
command climate. That started to surface in 2009 directly to 
us.
    There was also a 1998 review of the 1997 assessment, done 
again by the Military District of Washington Inspector General, 
and they went back in and looked at the areas that they had 
covered in the 1996-1997 time frame and gave the CG an 
assessment. So there was some action, although apparently not 
the right action.
    Mr. Wittman. Mr. Secretary, one additional question, are 
there remains in the 117 graves sites that don't have 
headstones? And if there are, have we identified those remains? 
And if we have identified those remains, what are we doing to 
honor those deceased?
    Secretary McHugh. The short answer to your question is we 
have found no remains. The 117 were map discrepancies, as 
described in the Inspector General's report. We have gone in 
and investigated 27 of those thus far; and in each one of those 
27 cases we have found that the maps were inappropriately 
marked as having remains when our analysis, including digging 
into those sites, revealed that there were not. That doesn't 
ensure that we won't encounter the circumstances you are 
concerned about rightfully in the future, but to this point we 
have not had to do that.
    Should we, obviously, we are going to have to take a number 
of steps. Presumably, if the outside tagging is appropriate, we 
would contact the next of kin and make arrangements for 
appropriate honor reinterment in concert with their wishes, of 
course. But we have not had to deal with that as yet.
    The Chairman. I thank the gentleman.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    I thank you both for being here. We appreciate your 
service.
    I have to begin by saying that I was deeply disappointed 
when I read in the Washington Post that those headstones from 
Arlington were found in a river bed on the cemetery's grounds 
as well the Patuxent Research Refuge. When I saw the photo that 
accompanied the Washington Post article, I was particularly 
upset that there was a name on one of these headstones, and it 
happened to be George Bihrer, a World War I veteran from Iowa. 
That particularly hit home, as I am a Representative from Iowa. 
As you might imagine, it hit me hard; and I was quite dismayed.
    And, again, there doesn't seem to be an explanation for how 
that headstone came to be there; and I guess that is even more 
upsetting.
    And I know, Mr. Secretary, you tried to answer to some 
extent the question about the current status of the headstones 
that were found there. So what the policy is with respect to 
headstones that are replaced or whatever the case may be, can 
you elaborate a little more on that? I know you were answering 
that question when Congressman Conaway brought that issue up. 
What happens to those headstones?
    Secretary McHugh. Just so I am clear, the normal procedure 
now?
    Mr. Loebsack. Now, exactly.
    Secretary McHugh. When we replace a headstone--and it has 
been this way since 1994, and we are not aware of any 
divergence from that policy. But what happens now is a replaced 
headstone is broken in two and ground so that, in the case that 
you cited where there are discernible markings, they are no 
longer discernible. And they are disposed of. They are not 
reutilized. They are disposed of in an appropriate manner.
    Mr. Loebsack. And is it the case that we don't know yet why 
these headstones ended up where they did?
    Secretary McHugh. It seems obvious this was an accepted 
practice throughout many government agencies that indeed had 
cemetery operations that encountered excess headstones.
    As I said to Congressman Conaway, I can't justify that. It 
was, apparently, acceptable policy. I find it hard to believe 
how anyone could develop that as acceptable policy. I find it 
rather abhorrent, but it was accepted policy.
    So what we are encountering is that these headstones were 
used in a variety of ways as building materials. It is 
distasteful. We don't do it any longer; and we are making every 
step, most importantly, to extract those headstones from the 
stream.
    We have a way forward with the Department of Interior. In 
fact, we have a meeting coming up, I believe it is today, 
actually, on June 30, to talk about the appropriate 
environmental way forward. These are in streams and stream 
beds; and we don't want to, A, cause an environmental 
catastrophe or an environmental challenge; and, B, they do in 
part hold up the stream bed, which validates the integrity of 
the cemetery land. So we want to make sure from an engineering 
and environmental perspective we are going ahead, but we are 
going to take all of those stones and according to current 
policy grind them up and dispose of them in a respectful way.
    Mr. Loebsack. Two more quick points and I think both of you 
can agree with this. It has been quite some time, and we have 
been pretty successful in this country in sort of bringing 
America around to appreciating our soldiers, sailors, airmen, 
Marines and Coast Guard folks after Vietnam. Vietnam was a low 
point, as everyone in this room knows, sort of how the American 
public looked at our military and, to some extent, our troops 
as well and didn't really appreciate them very much, I think as 
a result of Vietnam; and we have been making a long, slow 
comeback on that front since that time.
    I am very concerned, obviously, that what we have seen 
happen with these headstones--it is a real problem, obviously. 
It doesn't reflect well, I think; and I think a lot of the 
American people are going to have a lot of concerns, obviously, 
about this. And they already do. I look forward to working with 
both of you, to the extent we can do that as Members of 
Congress, to remedy the situation and provide whatever 
resources we need to provide to make sure that this doesn't 
happen again.
    One final comment about the guard and reserve. Please do 
look at the report from the Reserve Officers Association. We 
have 2,900 Iowa national guard members that are going to be 
deployed to Afghanistan, and I think it is important that we 
not tolerate any distinction with what happens with folks who 
have served active duty versus those who are in the guard and 
reserve. I look forward to continuing to work with you on that 
front as well.
    Secretary McHugh. We will certainly look at that, 
Congressman, and appreciate your help. Again, there is no 
justification for what happened.
    General Whitcomb. And my son is one of those Iowans, sir.
    Mr. Loebsack. Good for you. Thank you. I probably met him 
when I was at Camp Ripley recently.
    The Chairman. I thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Thank you Mr. Chairman. General and Mr. 
Secretary, thank you for being here today.
    Secretary McHugh, those of us who served with you regret 
that you are in the role you are in on these issues, but we 
have faith, and I have faith in you, and I know that you want 
the best for our military.
    Arlington National Cemetery is a national shrine with the 
highest honor possible for our veterans of perpetual care on 
sacred ground. As a veteran myself, and also with immediate 
family members who are buried there, Captain Michael McCory, an 
Army captain, Marine Colonel Trane McCloud, who is a former 
staff member of mine, is buried at Arlington. So it is 
extremely personal to me. All of us as Americans expect the 
highest standards of compassion for our veterans and military 
families.
    With that said, Mr. Secretary--and you have addressed this, 
but it is so important it needs to be restated--the Army 
Inspector General report suggests significant contracting 
discrepancies, even improprieties, and you have indicated there 
will be a Criminal Investigation Division (CID) investigation. 
Can you tell us how far and what will be done?
    Secretary McHugh. Well, the CID will use, and to the extent 
they are available--and it is very early, as you know, in the 
process--are using those materials developed through the audit 
of the contracts. ASAALT, Acquisition, Logistics, and 
Technology, the contracting and procurement office for the 
Army, is the lead on the contract review that I have ordered. 
It is being supported by the AAA, the Army Auditing Agency.
    Those materials, after they try to develop to the greatest 
extent possible an audit trail, will be shared with CID, as are 
all of the IG reports, to try to make determinations if there 
is sufficient evidence to proceed in any way against anyone in 
a criminal manner.
    That is going to take some time because, as has been noted 
in the IG's report, there is a paucity of identifiable material 
as to how much was spent, what was garnered for substantial 
millions of dollars spent of taxpayer and Army money in pursuit 
of not much gain.
    Mr. Wilson. I appreciate you looking into this. Because it 
is beyond just incompetence. All of us, and I know you, expect 
much more.
    Secretary McHugh. If I may, also, Congressman--because 
Congressman McKeon brought it up as well--we are not just 
stopping at Arlington. We want to make sure that the direct 
reporting units, the field agencies are subjected to oversight. 
I have ordered the IG to do that. I know he and his people will 
comply. But we have to take lessons learned, and where we find 
deficiencies in our contract oversight process we are going to 
apply those across the Army as well.
    Mr. Wilson. The Veterans Administration runs 130 national 
cemeteries. In the district I represent, the Beaufort National 
Cemetery, the Fort Jackson National Cemetery, which was 
promoted by my predecessor, the late Chairman Floyd Spence, 
these cemeteries have not had such problems as have been 
uncovered at Arlington. Do you see any benefit in bringing 
Arlington National Cemetery under the Veterans Administration?
    Secretary McHugh. Well, as I responded to the Chairman in 
one of his opening questions, I have the highest regard for 
Secretary Shinseki. He has been enormously supportive in the 
Army's efforts to try to rectify this situation. As you noted, 
they run a very substantial network of cemeteries, and I know 
they do a fine job as well.
    I also mention there are other agencies that run 
cemeteries, also, the Department of Interior and others; and 
they serve as memorials and active cemeteries to a certain 
degree.
    I think all of the agencies that run cemeteries have their 
particular challenges. There are reports as to certain 
deficiencies in these other agency cemetery operations. But I 
think at the end of the day it is rather unfair at best to 
burden some other agency with an Army challenge.
    I mention as well, for 146 years the Army has been a major 
part in making this the most special place on the face of the 
earth in terms of honoring fallen heroes. We view it as our 
responsibility. The military views it as their responsibility 
to carry those fallen heroes, particularly in time of war, to 
their final resting place. We are going to regain that legacy 
that has been built for nearly one and a half centuries.
    I will tell you, as I mentioned to the Chairman, as a 
former 17-year member of this committee, I do think, with all 
due respect to other committees, that it is important for this 
committee to keep jurisdiction over oversight of the final 
resting place of these fallen heroes. But whatever the Congress 
and the President decides, we obviously will follow. But until 
we are told to step down, we are going full speed ahead.
    The Chairman. I thank the gentleman.
    Before I call on Mr. Johnson, let me make an inquiry of the 
general.
    General, you submitted the Inspector General report; am I 
correct?
    General Whitcomb. That is correct, Mr. Chairman.
    The Chairman. When did you submit it?
    General Whitcomb. We had two reports, an inspection and an 
investigation. Two separate reports. I have two separate 
divisions.
    The Chairman. Approximately what dates?
    General Whitcomb. The investigation was submitted to the 
Secretary on the 8th of June. The inspection was not submitted 
to him. We worked it when it was completed from the first part 
of the year until April or May or so.
    The Chairman. Now, as I understand it, there is another 
report, a Department of Defense Inspector General report; am I 
correct?
    General Whitcomb. Sir, the only Department of Defense 
Inspector General report that I am aware of is the one that 
Congressman Snyder mentioned, which is the whistleblower 
complaint by an employee at Arlington National Cemetery that 
was opened in October of 2008. That goes directly to the DOD 
IG, and we received the final results of it late last night.
    The Chairman. Would the gentleman from Arkansas wish to 
inquire?
    Dr. Snyder. General, you piqued my interest. I got it 
because I sent a letter of inquiry several months ago. Mr. 
Skelton got it last night or yesterday afternoon as chairman of 
the committee. Yet when I asked you about it you said you 
hadn't had time to read it.
    I understand busy lives. On the other hand, you are 
attending a full committee hearing today on these terrible 
things we don't like at Arlington National Cemetery. You are 
the Inspector General for the Army. You received an Inspector 
General's report from the Department of Defense involving 
Whistleblower Reprisal Investigation, Arlington National 
Cemetery. Why couldn't you have found time to read this report 
and be prepared for questions about it?
    General Whitcomb. Sir, I did read it. I told you I read it 
this morning. I got it last night. I read it. I have not had a 
chance to analyze the report that took almost 18 months for the 
Department of Defense Inspector General to complete. That is 
effective----
    Dr. Snyder. But then you said that--you ventured a comment 
about it which I felt was an incomplete comment about it, and 
then when I asked you to clarify more completely you said you 
couldn't talk about it because you hadn't analyzed it. It seems 
to me that you have said--well, were not adequately prepared to 
answer this committee's questions but also perhaps did a 
disservice to Ms. Gray.
    I appreciate your clarification.
    The Chairman. I thank the gentleman.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I share the outrage that you expressed, as well as feelings 
of great empathy for the families of our fallen soldiers who 
are buried at Arlington National Cemetery, as well as their 
loved ones, their spouses. That cemetery serves as a memorial 
and a national monument to America's war heroes, and so I look 
at the situation very seriously.
    I do want to focus on the workforce at Arlington National 
Cemetery, and the investigative report spoke to the fact that 
there is an unhealthy work environment that exists and has 
existed at Arlington National Cemetery for some time. What I 
wanted to know is, how many complaints of racial discrimination 
have been made, Lieutenant General Whitcomb, to the appropriate 
authorities arising from employment at the Arlington National 
Cemetery over the past say--since 1990?
    General Whitcomb. Congressman Johnson, I don't have the 
precise number of complaints. We looked at the hostile work 
environment, which included racial complaints, vulgarity, and 
intimidation of workers at Arlington National Cemetery. That 
allegation was not founded.
    We did find as a part of that that there was an unhealthy 
work environment at the cemetery. It was partly due to the 
leadership, the convoluted command and control Secretary McHugh 
talked about, the insular attitude by the Superintendent to 
keep things at his level, the dysfunctional relationship 
between the Superintendent and the Deputy. We did not find a 
hostile work environment that would rise to the level that 
there were a number of these issues taking place on a regular 
basis.
    Mr. Johnson. Thank you. Were the Superintendent and Deputy 
Superintendent of the same race?
    General Whitcomb. Sir, they were not.
    Mr. Johnson. What was the race?
    General Whitcomb. The Superintendent is white, and the 
Deputy Superintendent is black.
    Mr. Johnson. What was the nature of their inability to 
function as a cohesive supervisory unit?
    General Whitcomb. Sir, we couldn't determine that. It came 
out in 1992, the inability of these two men to be able to work 
together. It appears that they struck some kind of 
accommodation where they kept in separate lanes. Although what 
we found and what contributed to the unhealthy work environment 
was those lanes tended to overlap. It is a small organization 
at Arlington of about 95 employees today. That overlap caused 
that unhealthy working relationship and management at the 
cemetery.
    Mr. Johnson. The inappropriate hiring practices and 
instances of favoritism and nepotism which were also complained 
about, those issues as well as the use of inappropriate racial 
comments or vulgarity and intimidation of subordinate 
employees, those allegations were ruled to be unsubstantiated 
or not founded in fact. How many such complaints in those areas 
that I just enumerated were there? And who or what agency was 
it that actually investigated those complaints?
    General Whitcomb. In 1997, the Commanding General of 
Military District of Washington, because of the command climate 
complaints received at that point, asked the Defense Equal 
Opportunity Management Institute that looks at equal 
opportunity issues for the Department of Defense to come in and 
do a command climate survey.
    We do not have a record of that survey being done. That 
survey would have been done as a standard practice and given to 
the commander or the senior leader in the organization that 
requested it. I don't know whether the Commanding General 
received it or whether the Superintendent would have received 
it.
    Mr. Johnson. Is it still a problem out there at Arlington 
National Cemetery where black folks feel like they are being 
treated badly and differently from other employees? And are 
there any, Secretary McHugh, black folks other than the 
Assistant Superintendent, in positions of supervision, 
supervisory personnel, at the cemetery?
    General Whitcomb. Sir, there are both, a mix of races at 
Arlington. The comments and allegations were also not just one 
race. It worked both ways, discrimination comments against 
whites and against blacks. So it wasn't a one-way trip. But 
there are several supervisors of both races.
    Mr. Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you for being here. General Whitcomb, thank you. I 
appreciate your service.
    Mr. Secretary, I know that a challenge like this is very 
complex logistically and that it is a significant undertaking 
to organize something as large, and again, in just the 
realities of the challenges on the ground. But I guess--and I 
believe that you and all of us are more primarily concerned 
above anything else, and that is to assuage the grief and the 
difficulty of people that have dealt with this, that their 
loved ones are affected and that those that they remember with 
such love and honor that somehow that has been diminished.
    So I guess there are two things that I think we should 
focus on. Number one, obviously, is to figure out what happened 
not so much to bring blame but to be able to reorganize and 
restructure so it doesn't happen again. So I guess my first 
question is, it sounds like, at least in terms of the 
structure, that some of the people at the top echelon were at 
war with each other and that seems to have filtered down and 
added to the confusion that may be at the base of what happened 
here that we are all concerned about.
    My first question is: What has been done to restructure 
things? And I know that you covered this to some degree before, 
but give me the 101 to ensure there is a clear delineation of 
leadership to prevent this in the future.
    Secretary McHugh. Thank you, Congressman.
    As I mentioned, I have taken several steps and certainly 
don't preclude taking others, but the first was to rescind 
General Order 13. That was the governing structure that in my 
view did just about everything but govern.
    I redirected the lines of authority. I created a clear 
command structure at the top in terms of cemetery operations by 
creating a position of Executive Director of Cemetery Army 
Operations and placed one of our most Senior Executive Service 
professionals into that post, Ms. Katherine Condon.
    She has begun to restructure below her in ways where the 
employees know when there is a problem where they should go to. 
She is constructing directive orders so there is an actual 
process and paper that people can look at when they encounter 
problems, be they in their workplace environment or something 
that is operationally incorrect out into the cemetery grounds. 
They have a clear chain of command to go and report those 
irregularities up through.
    I have made Ms. Condon directly responsible to me, the 
Secretary of the Army. Every day since this first came to light 
and I issued the publication of the Inspector General's report, 
she and I have talked; and we are going to continue to do that 
on a daily basis for quite some time.
    Mr. Franks. Let me ask you than, just lying in Arlington 
National Cemetery is a stark proclamation that the person there 
has been willing to give up all of whatever days they had 
remaining for our tomorrows, as it were. One of the few things 
that we can give them back, of course, is the honor of holding 
them to be the heroes in our society. What are we doing now to 
try to express that to the loved ones that have been affected 
here and what are we doing so that--informationally or 
logistically so that we can make sure that we honor these men 
and women who laid down their lives for us in the future?
    Secretary McHugh. If one were to read the Inspector 
General's report, I think you would find very clear validation 
that when it comes to the actual funereal operations, things I 
go to on a weekly basis, where the honor guards carry those 
fallen heroes to that final resting place, where the rifle 
companies fire that 21-gun salute, and the band plays its 
solemn tones and the issuance of taps and the care for those 
families, that is done at the highest level. We feel very proud 
of that but understand that all that went on below that 
diminishes it, and we want to make this a fulsome operation.
    Where there are challenges and concerns, we are going to 
make those right. It will take time. This is a very laborious 
operation, but we feel confident, particularly when we 
install--and we are on a fast track to do it--a working IT 
system so that recordkeeping is brought into the 21st century 
so we don't have, as we are encountering, map discrepancies 
where we thought by a certain record a body may lie in rest, 
but we know now physically there is not. So we are getting what 
we call a baseline of assurance and responsibility to restore 
the full glory of what we all understand and believe very 
strongly is most special place of ground in America.
    The Chairman. I thank the gentleman.
    I think you just gave us the key, Mr. Secretary, the 
electronic recordkeeping. Of course, going back some 146 years 
is going to be very difficult, I know that, but hopefully as 
complete of an electronic recordkeeping will be available, and 
I hope that your office could keep us advised from time to time 
as to the progress on this. That would be very helpful, rather 
than having a separate hearing every time there is a key 
milestone that is met. And we would appreciate that.
    Secretary McHugh. We will make sure you are provided 
regular updates, Mr. Chairman.
    The Chairman. Thank you so much.
    Mrs. Davis.
    Mrs. Davis. Thank you both. I appreciate, especially Mr. 
Secretary, your serious attention to this matter.
    I wanted to clarify the funding issue. And perhaps you 
addressed it, but I wanted to be sure that it was clarified I 
think for the public as well.
    The funding for Arlington Cemetery operations is 
appropriated separately under the Military Construction and 
Veterans Affairs (VA) and Related Agencies Appropriations Act. 
So it is not a DOD appropriation.
    Secretary McHugh. That is correct.
    Mrs. Davis. So does that legally preclude the Army from 
using Army funds to augment the Arlington Cemetery funding?
    Secretary McHugh. It does.
    Mrs. Davis. And, if so, what legislative assistance do you 
need from the Congress to provide a remedy for this limitation, 
and is that the issue or is it something else?
    Secretary McHugh. I am glad you asked. It is an important 
part of the issue. It doesn't in any way explain the myriad of 
other shortcomings that have nothing to do with funding.
    Mrs. Davis. Right, I would agree with that. But in terms of 
the appropriation.
    Secretary McHugh. But it does highlight the reality that, 
in terms of current operations, the Army is severely restricted 
from, on quick fixes or immediate needs, installing an infusion 
of money; and we are clearly going to ask you for relief in 
that. I don't want to say what that is right now and how we 
would structure that; and, obviously, committee jurisdictions 
come into play here. Although I think it is fortunate, at least 
on the House side, as you noted, Mrs. Davis, that both the VA 
and the Army and DOD appropriations are run through the same 
appropriations subcommittee, so it may not be all that 
difficult. But we very much would like the flexibility, on a 
needs basis, to infuse Army money; and we will be coming back 
to you with a plan on that.
    Mrs. Davis. You spoke earlier, though, about the stress on 
the budgets, on all the budgets, the tremendous strain as well. 
So I am wondering, perhaps the public would be questioning 
where this would fit into the many, many challenges that 
certainly your budget faces as well as others.
    Secretary McHugh. Well, obviously, we have to make hard 
choices every day. The operations at Arlington, as I mentioned 
earlier, the carrying of our fallen heroes to their final 
resting place is awfully important to us, and we would find 
room. But in the first instance we need that legal flexibility 
which, regardless of other budget considerations, doesn't 
provide us a chance to even consider it.
    Mrs. Davis. Connected to that, of course, are the manpower 
requirements, and I think there have been some questions about 
personnel that were raised. But, beyond that, the 95 
individuals who serve now that have a much larger number of 
families that are seeking their help and their assistance in 
making those decisions to inter their loved ones at Arlington 
National Cemetery, are there enough people to do the job?
    Secretary McHugh. My instincts say no, but we are not going 
to operate on instincts. Ms. Condon, under my direction, has 
begun to conduct what the Army calls a table of distribution 
and allowances (TDA), which is an analysis of personnel needs. 
I believe that will be done this month, about the 27th, I 
believe, of July, that we will do a hard analysis of the 
personnel situation and where needs may exist.
    I expect you are right. Because the reality is, while the 
ops and post tempo, as we call those things on your great 
committee, have increased for these individuals dramatically, 
particularly through the warriors in Iraq and Afghanistan, 
their financial support and the cadre itself has remained 
relatively stagnant. It just seems logical to me that they need 
more help.
    And just, if I may, nothing in this report suggests that 
those out-in-the-cemetery employees are doing anything but an 
outstanding job. Through their grit and determination, they 
have actually kept that good face of Arlington to the families 
of these fallen heroes, and I think we owe them a great debt of 
thanks.
    Mrs. Davis. I was noticing here, they are scheduling from 
135 to 150 funerals every week, and keeping all of that 
together certainly is difficult. Has there been any concern 
expressed as a result of what has occurred that people are 
reluctant to inter their loved ones there?
    Secretary McHugh. I am sorry. I didn't hear the last part.
    Mrs. Davis. I am just wondering whether there has been any 
concern expressed of a reluctance now, as a result of this 
recent news, to inter loved ones there.
    Secretary McHugh. Not anything that we have heard. But they 
are human beings, and I think it is natural for a human being 
to react in sad ways when a place that you have devoted 
yourself in such credible measure is called into question. That 
is why I think it is important. And the first day, right after 
the Inspector General and I concluded our press conference 
revealing this information, Ms. Condon and I went down to the 
cemetery and held a town hall to make that very clear to these 
people. They are doing an amazing job, and we need them to be 
proud of that effort. They deserve it, and we are doing 
everything we can to validate that feeling.
    Mrs. Davis. Thank you.
    The Chairman. Thank you very much.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Mr. Secretary, I was privileged for many years to sit near 
you or next to you here, and it is really good to see you 
across from us here.
    In thinking about this hearing today, I was impressed, I 
guess, with the concern that you all are showing. We are 
fighting two wars, and this would appear to be a fairly low 
priority relative to these two wars that we are fighting. And 
yet it is very obvious from your testimony that you have spent 
a lot of time and devoted a lot of attention to this.
    I thought of a Biblical text in thinking about this hearing 
today when Christ said, ``This ought you to have done, and not 
to have left the other undone.'' We have paid great attention 
to these two wars, and that we should have done, but we 
shouldn't have left undone what we did relative to this 
cemetery.
    I want to thank you both for what you have done. I don't 
have any specific questions. I am sure all of the relevant 
questions have been asked. I just wanted to express my 
appreciation for the concern that you have shown for this, and 
obviously all the energies that you have expended, both of you, 
in this area when we are busy fighting two wars. It shows the 
respect that we have for our fallen. And I want to thank you 
very much for the statement that you are making to all of our 
servicemen and to their families and to America in general that 
this really is important. Thank you very much for your 
attention, both of you.
    The Chairman. I thank the gentleman.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    I know the time is limited. I had really wanted to yield my 
time to Leonard Boswell. So if I could just reserve my time and 
yield it when he comes back, I would appreciate that.
    The Chairman. Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chairman; and let me also 
express my appreciation to Secretary McHugh and General 
Whitcomb. I know you have had a very tough challenge with 
trying to figure out a way out of this dilemma at Arlington 
Park, and I appreciate your swift and prompt action of 
something that occurred on someone else's time per se with the 
Superintendent and the Deputy Superintendent.
    I do also believe that we owe a great amount of honor and 
respect to our veterans that are interred at Arlington National 
Cemetery, and families need to know that once their loved ones 
are laid to rest that they will be given the proper respect and 
treatment that the families and certainly our beloved soldiers 
deserve in honor and respect for their service.
    I have to tell you that I apologize that I have missed some 
of this hearing, but in reading through the report and looking 
at some of the words that have been used, from ``failed,'' 
``missed,'' ``wasn't in place,'' all these different procedures 
and actions, and to look back that many of these problems and 
complaints started occurring back clearly to 1992, almost 20 
years that we have seen complaints. I have to tell you that I 
am thoroughly disgusted that--I don't know who was being 
protected during that time with the Deputy and the 
Superintendent, but, clearly, someone wasn't paying attention 
to what was going on with the complaints that were going on.
    I know that you gentlemen are trying to resolve that 
situation. The personnel policies were obviously failing, 
because there were lots of complaints during that time, and the 
evidence was there, and there was a lack of inspection about 
what was really going on.
    I know when I was out in the private sector--I had a 
business that I managed--and one of our key phrases was that 
you ``inspect what you expect,'' and clearly someone wasn't 
inspecting what they expected out of the service and our 
military in relation to Arlington.
    So now we go forward. How do we deal with what is going 
forward? How do we reassure our families and our soldiers that 
they will be treated with the respect they deserve and 
properly? And I guess my question is, are we involving the 
families? I know that there will be an Arlington National 
Cemetery planning commission per such. Will the families be 
involved in that commission? Will they have a voice? Will they 
have input when they do have issues that are concerning them 
going forward?
    Secretary McHugh. I wouldn't want to insulate the families 
just to one part of this operation. My intent in creating the 
position of executive director of all Army cemetery operations 
and making that person directly reportable to me is to ensure 
that the families have direct access to the highest level. I 
can tell you in terms of the call center that we established 
where families are able to phone in and express their concern, 
and if there is a specific nature to that, we can begin to 
address it. Ms. Condon is right on the line returning and 
answering calls herself. So she and I have had a discussion, 
and her intention is to move concerns and complaints to the 
highest level, not to the off level.
    I will tell you, as happens at, for example, every major 
military academy--West Point, the Air Force Academy, 
Annapolis--boards of oversight, boards of visitors, in terms of 
West Point where I served 14 years, are there to put an extra 
set of eyes upon the day-to-day operations and problems. And we 
had occasion where largely parents of cadets who had issues 
would inform us of that, and we would bring those.
    So they are welcome to do that, but I think it is equally 
important that we let them know that they are not going to get 
lost at the third or fourth level of the structure. They are 
welcome and encouraged to come to the executive director and/or 
me.
    Ms. Fallin. And I have one other comment, and maybe you can 
respond to this, too. But after reading some of the reports of 
the infighting going on between the Superintendent and the 
Deputy and the length of time in the complaints that were going 
on, I just for the life of me can't figure out why someone 
didn't do something about that then. Why did it take so long to 
make the personnel changes that we needed? Was the personnel 
policy so protective of these federal employees that we 
couldn't make the changes? Did someone just drop the ball?
    Secretary McHugh. I think the latter more than the former. 
And, again, it is speculation on my part. I don't think anyone 
understood and therefore did not assume proper oversight and 
supervisory authorities as to these particular types of 
actions. There was a real disconnect between the cemetery 
operations and the regular oversight authority.
    I share your frustration. It still seems to me, looking at 
it from more than a decade later, that even without clearly 
expressed authorities somebody should have said something to 
someone. But it obviously did not occur; and, as the Inspector 
General mentioned earlier, it seems that the Deputy and the 
Superintendent were able to reach some kind of very, I think, 
unhelpful but apparently at their level somewhat workable 
accommodation where they didn't cross into each other's lanes, 
at least as much as they probably should have--they had proper 
administrative functions--and it just rolled on.
    The only thing I had the option to do when I found out 
about it was to relieve the Superintendent of his command 
authorities, which I have done, and put the Deputy 
superintendent on administrative leave, which I have done, to 
clear out the conflict that existed and go forward as to what 
else we need to find out about that circumstance.
    Ms. Fallin. I thank the gentleman.
    The Chairman. I thank the gentlelady.
    I understand you do have to leave right at one o'clock, am 
I correct?
    Secretary McHugh. Yes, sir.
    The Chairman. We are going to be having some votes very 
shortly. Let's try to squeeze everyone in, if possible. Keep 
them as short as you possibly can.
    Mr. Kissell, did you want to return to you? Very quickly, 
very quickly.
    Mr. Kissell. Yes, sir. I do have some questions I will 
submit for the record, but I do want to yield to Leonard 
Boswell.
    Mr. Boswell. Thank you, Mr. Kissell.
    It is good to see you, Mr. Secretary and General. I share 
your pain, I think, those last hours since we have learned--and 
terribly unfortunate, certainly unacceptable, alarming that 
this could have happened. But, having said that, I will 
associate myself with Mr. Ortiz and not repeat things that have 
been said.
    It causes you to reminisce a little bit. I look at you guys 
in uniform and so on, remembering some of the time when I had 
to write those long letters. And I think it is the same 
feeling.
    Mr. Lantos, we all remember him. Mr. Lantos used to be with 
us. Another secretary guy named Gates was over. You may have 
been there, John. I don't know. I think you were. He made the 
comment that change took place there.
    And I think my experience with you personally, it applies 
to you, too. You have got the right tone. You really care, and 
I know that. I think we all know that. You can't undo what was 
done, but you are going to make it go right or go forward. And 
I just want you to know that I appreciate that, and you, too, 
General. So let's move forward.
    It is extremely unfortunate. It makes me very sad, as I 
know it has you. But we are going to do better, and those 
families are going to get that personal attention that you have 
already talked about. I think it is extremely important, as it 
was for those of us who have served a command role, to contact 
the next of kin, a loved one. So I commend you for doing that.
    Carry through. I know you will. We will fix this. And I 
want to work with you, as I am sure everybody here does. Thank 
you.
    Secretary McHugh. Thank you very much.
    Mr. Boswell. I yield back.
    The Chairman. I thank the gentleman.
    We are going to do this as quickly as we can.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    Earlier, at the beginning of this hearing, I was at another 
one with Secretary Salazar, along with Congressman Boren and a 
few others, and the word ``oversight'' was there. Here I heard 
you use it as well, Mr. Secretary, and I am very grateful for 
the work that you are doing about this.
    My uncle, my father's twin, is buried at Arlington National 
Cemetery. He was an Air Force Colonel, three wars. And I have 
to tell you it was a very solemn burial, and it was a beautiful 
burial service. I still love Arlington National Cemetery, and I 
believe we can get this right under your leadership. So thank 
you very much.
    My question has to do with the fact that the inspection 
team found that the Army does not have one single entity for 
managing Army cemeteries. And I wonder, should there be one? 
Because it might result in different levels of maintenance and 
management, et cetera?
    Secretary McHugh. We have created, through the position of 
Executive Director of Army Cemetery Operations, a single 
authority. The primary day-to-day responsibilities of that 
office will be to oversee Arlington and the Soldiers and 
Sailors Home Cemetery, also here in Washington. We have any 
number of cemeteries that are operated on the post camps and 
stations, most of them historical in that they have existed for 
some time. Some still have active interments. The 
responsibility for those are generally with the garrison 
commanders.
    I visited a couple over the past several weeks. They take 
it very seriously. But it is our intention to put out command 
directives as to what we expect them to be doing in terms of 
inspections and oversight reporting methodology as they go 
forward.
    So I can't tell you what General Whitcomb and his people's 
exact form and thought was, but in spirit we have already 
created that, and we are going to continue to work it.
    Ms. Shea-Porter. Thank you, and thank you for cleaning up 
this scandal.
    I yield back.
    The Chairman. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I will just be very 
quick.
    Secretary, General, I appreciate the efforts, certainly 
some of the most hallowed ground in our nation, and your 
efforts in, one, getting to the bottom of this issue and going 
forward in a positive way so we do always show respect to the 
true heroes of our nation is much appreciated.
    Mr. Secretary, I appreciate your commitment. As my 
colleagues said, we know you care and are going to get it 
right.
    So I yield back, Mr. Chairman.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just very quickly, I was wondering, as you go about 
restructuring and fixing some of the dysfunctional problems 
that you found, what efforts are made to reach out to the 
veterans' community itself to include them in the efforts as 
you make those changes and to make sure that they have an 
ongoing role, there is a regular way to communicate and make 
sure that their concerns are being addressed, the family 
members as well as veterans' organizations?
    Secretary McHugh. Well, family members, as I mentioned 
earlier, as they have expressed concerns to us, we are reaching 
back to them; and we will try to move forward on whatever those 
concerns may be. Some are very generic. Others do have to do 
with specific grave sites; and where the latter is the case, we 
are pursuing.
    As to the veterans' organizations, they have traditionally 
been very, very active at Arlington. We appreciate that. 
Obviously, they have a vested interest and concern, and they 
are always welcoming in that. I think their interest and 
concern is directed toward proper recordkeeping, ensuring that 
the pomp and circumstances--and I mean that in the highest 
way--is continued and afforded to these heroes as they are 
carried to their graves; and we will continue to do that.
    I would say here publicly, as I mentioned with respect to 
any citizen who has concerns who has a loved one there, that 
the veterans' organizations are always welcome with their 
suggestions. And my history with them, my experience with them 
over 17 years on this panel has been they are very, very 
aggressive, rightfully so, in support of those they represent.
    Mr. Smith. Yes, not shy about offering their opinions.
    Just for the record, I think some sort of formal structure 
within the new organization might be something worth looking 
at. I know they come at you in different ways, but somebody 
assigned to the committee being specifically assigned to 
outreach.
    Secretary McHugh. We will certainly take a look at that. I 
don't want to say something I can't actually keep as a promise, 
but perhaps with respect to the new board that we are creating, 
maybe a de facto position by title in that. We will take a look 
at that.
    Mr. Smith. Thank you, Mr. Secretary.
    I yield back.
    The Chairman. Thank you very much.
    Mr. Heinrich and Mr. Rush, I think we can squeeze it all 
in.
    Mr. Heinrich.
    Mr. Heinrich. Thank you both for being here and for your 
efforts to fix this.
    I recently got a call from a constituent whose brother was 
laid to rest in Arlington in February of this year. And, as you 
can imagine, she had heard the press reports and simply wanted 
to know, does this impact me? I am trying to get a handle on 
what efforts are being made to contact those families who are 
impacted by a mismarked plot, and how do we get information to 
all those other families who aren't impacted that everything is 
just fine and it is the way you think it is? And how do we make 
sure that information is also available to people who, say, 
don't have Internet access?
    Secretary McHugh. Well, as to the individual families, as I 
said, we set up a call center. Certainly, Congressman, if you 
want to give me a call and we will get the pertinent 
information. But any family member, be it in your constituency 
or elsewhere, is not just welcome but encouraged to call 703-
607-1899, and we will get back to them. And where they have a 
specific concern, as we are doing right now, we will try to 
work through those.
    We are not at this time contacting members who have not 
expressed a concern and who our validation process confirms 
they don't have an issue. We don't see there is a need to raise 
levels of concern amongst those who for the moment are content.
    Now, where we do find an issue, where even though a family 
member has not contacted us, it has not happened as yet, but we 
fully intend to contact the family member and chart forward a 
way that they are comfortable with in their time.
    Mr. Heinrich. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Rush.
    Mr. Rush. Mr. Chairman, first of all, let me thank you so 
much and thank the members of this committee for unanimous 
consent to allow me as a nonmember of the committee to come in 
and be a part of this hearing. I am entirely grateful to you 
and to the ranking member and to all the members of this 
subcommittee for this opportunity.
    Mr. Secretary, it is good to see you again; and, General, 
it is good to see you.
    Arlington Cemetery is the gold standard for cemeteries 
across the nation. It is iconic. And if disrespect and dishonor 
can occur at Arlington, then it can occur at any cemetery in 
the nation.
    I am a veteran, I am a proud veteran, and I am here today 
because there were some reports and some allegations and some 
findings that arose at a cemetery in my district, the Burr Oak 
Cemetery, which is a nonmilitary cemetery. But in my capacity 
as the chairman of a subcommittee of the Energy and Commerce 
Committee, I looked at cemeteries all across the nation, and I 
found some real issues with cemeteries all across the Nation.
    But specifically in response to Burr Oak in my district, I 
introduced legislation, H.R. 3655, that sets forth minimal 
federal standards and guidelines for all nonmilitary 
cemeteries, crematoriums, and mausoleums. These are--using your 
words, this bill is to establish--and I like your words--
baselines of assurances--I am going to model your words, if I 
might--that will establish guidelines and rules that will be 
written by the Federal Trade Commission and enforced along with 
the States, which will require all the entities, all the 
cemeteries to maintain current and accurate burial date and 
location recordkeeping and make that information available to 
the consumers.
    By applying the law to all cemeteries across the nation, 
whether Jewish, Lutheran, Catholic, or Muslim, whether buried 
or cremated in a for-profit or non-profit cemetery, will have 
added enforcement support that ensures cemeteries stick to 
their contract and that families can be assured that their 
loved ones are being handled accordingly.
    Let me just ask you one question, and you might not be 
familiar with the details of my bill, but in response to my 
bill and in response to markups and other things that we are 
doing in the committee, certain powerful organizations, 
religious and otherwise, have argued that they should not be 
subject to even minimum standards. They want a carve-out from 
the provisions of my bill. These standards would preempt State 
cemetery laws and regulations, and they would be financially 
burdensome.
    Can you give me an opinion, if you might, on whether or not 
these are sound positions, whether or not these organizations, 
these powerful forces, should not have the same baseline of 
assurances that you are trying to give to military families?
    Secretary McHugh. You have asked an excellently crafted 
question, Congressman, that I am going to have to respectfully 
dodge. Because I am not, as an Army Secretary, in a position to 
lobby for legislation any longer. I would carefully consider 
co-sponsorship were I still on your side of the dais.
    But I will say this. If your bill is successful and 
although it doesn't cover military cemeteries, I promise you by 
the time we are done we will exceed every one of those minimum 
standards you set.
    Mr. Rush. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Secretary and General, we appreciate you being with us 
today. One thing we have learned is, out of all this tragedy 
and the problems at Arlington Cemetery, you are on top of it 
and you care. You care. And we know that the investigation will 
be thorough, that you will do everything that you can to 
restore confidence in the American people--not just this 
committee but the confidence of the American people--in the 
operation of the Arlington Cemetery. We hope that you will keep 
this committee informed of your progress, and we look forward 
to hearing from you. We wish you well, and we thank you for 
caring.
    Secretary McHugh. Thank you, Mr. Chairman. We will be back.
    [Whereupon, at 1:00 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             June 30, 2010
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 30, 2010

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 30, 2010

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 30, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY

    Secretary McHugh. Thank you for the opportunity to comment on 
written testimony provided by the Reserve Officers Association at the 
June 30, 2010, hearing on Arlington National Cemetery.
    The ROA supports expanding the eligibility criteria for burial at 
ANC to include the following categories:
    <bullet>  Any Reserve Component member who has served on active 
duty honorably in a combat or hazardous duty zone, but who has not been 
killed in the line of duty.
    <bullet>  National Guard and Reservists who are killed in the line 
of duty whether on Active Duty for Training (ADT), Active Duty for 
Special Work (ADSW) for less than 30 days, or Individual Duty Training 
(IDT).
    <bullet>  Deceased gray-area retirees at Arlington National 
Cemetery, if entitled to retirement pay under Title 10.
    <bullet>  Spouse, surviving spouse, or dependent children of any 
group of eligible National Guard and Reserve members.
    I intend to have the Army National Cemeteries Advisory Commission 
review current eligibility criteria as part of their long-term 
strategic planning efforts. The ROA's position will certainly be one of 
the many factors the Commission will consider as part of that effort 
and I very much appreciate their input and look forward to working with 
them on this important issue. [See page 14.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 30, 2010

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Secretary McHugh, the IG report notes that the 
Cemetery doesn't adequately leverage information technology for its 
operations, a fact made glaringly clear by the Cemetery's reliance on 
paper records in today's digital age. Preserving the Cemetery's records 
and improving its ability to utilize those records to ensure the 
honorable care and preservation of the remains of American servicemen 
and women must be a top priority and shouldn't wait for resolution of 
the other issues identified in the report. Given the information 
technology available today, it seems the Army could move to rapidly 
address this problem. Secretary, what is the Army's plan to preserve 
the Cemetery's records and ensure their future availability?
    Secretary McHugh. The Provisional Oversight Group, which was 
created on 10 June 2010 to address the Inspector General's findings, 
has identified over 260,000 digitally scanned Records of Interment at 
the cemetery. In addition to these images, ANC's Interment Scheduling 
System contains over 70,000 records in its database. Scheduling records 
are now routinely ``backed-up'' to ensure that only one hour or less of 
active schedules could be lost in the event of a malfunction or natural 
disaster. Both the ISS database and the digitized records of interment 
(totaling over 330,000) are now stored in Army Data Centers, which use 
industry best practices for data recovery.
    Mr. Thornberry. General Whitcomb, your report highlights Arlington 
National Cemetery's lack of a modern information technology 
infrastructure. While the Cemetery has a plan for IT modernization, it 
still relies on paper records and manual recordkeeping processes, 
despite 7 years of IT procurements. Did you find that the lack of a 
modern IT infrastructure contributed to the other problems outlined in 
your report, including the improper interment of remains, failure to 
comply with applicable regulations, accountability and notification of 
next-of-kin?
    General Whitcomb. Our inspection and investigation of ANC revealed 
many areas where a modern Information Technology (IT) infrastructure 
would be of great benefit. As mentioned under deficiency 2.3 of the 
report on ANC, modern IT ``could have improved operational 
efficiencies'' within the cemetery. Its lack of these systems certainly 
contributed to the problems of improper interments, regulatory 
compliance failures, accountability, and notification of next-of-kin.
    The lack of a modern IT system affected daily interment operations 
at Arlington, and thus accountability of remains. The current 
operational tempo of the cemetery overwhelmed the current, almost 
completely manual system and the Interment Scheduling System (ISS) did 
not perform all the necessary functions needed to schedule and 
coordinate any one funeral. Multiplied by up to 33 burials a day, this 
made Arlington ripe for human error. Examples of ISS not performing all 
required tasks include: 1) not preventing multiple entries for the same 
decedent; 2) not preventing the use of previously assigned gravesite; 
3) not generating all required information on the daily funeral 
schedule; 4) not generating burial cards; 5) not generating the 
official record of interment; 6) not generating reports pertaining to 
information within the system; 7) not generating temporary markers with 
multiple names of family members interred in the same gravesite; and 8) 
not interfacing with the Burial Operations Support System (BOSS) used 
by the VA to order standard headstones. To amplify the scheduling 
challenges faced by cemetery employees and management, cemetery 
schedulers used the facsimile machine to coordinate with Service honor 
guards because ISS does not link with DoD e-mail systems. Many of these 
challenges were overcome only by time and labor intensive, manually-
created documents and reports, also prone to human error. Consequences 
of these human errors were double burials in one gravesite, burial map 
discrepancies, improper gravesite selection, unmarked gravesites, 
improper disturbance of and one instance of loss of accountability of 
remains, and improperly marked headstones.
    Arlington's most significant IT issue is that it did not have 
qualified IT personnel to oversee its IT requirements, to include 
compliance with Information Assurance regulations and policies. 
Deficiency 4.1 of the report highlights this issue. The Information 
Assurance (IA) inspection team ``inspected twelve different functional 
areas and found the cemetery non-compliant in all.'' ``The underlying 
root cause for information assurance non-compliance at ANC is a general 
lack of understanding, insufficient internal knowledge of the Army IA 
program, and insufficient manpower and resources applied to IA within 
the cemetery staff.'' From 2004-2008, and three months of 2009, ANC did 
have a qualified IT employee. However, the cemetery leadership, 
specifically the deputy superintendent, did not place the IT employee 
in charge of IT developmental efforts--he put himself in charge of 
these efforts. When the inspection team visited other national and 
private cemeteries, all had IT oversight and expertise on site or on 
call. One private cemetery employed a Director of Information 
Technology and had the most robust IT infrastructure and vision for the 
future of all cemeteries visited. ANC currently has two contracted IT 
personnel to manage its servers, but their role is limited and does not 
provide ANC with the expertise it needs to be IT compliant or to employ 
IT strategically.
    Our investigation teams did discover one instance where ANC failed 
to notify next-of-kin. Although we do not believe this was directly 
attributable to the lack of a modern IT infrastructure, we did note 
that Arlington did not have a good means of public feedback. A 
modernized IT system could provide Arlington with the means for greater 
transparency and external communications, aiding in keeping next of kin 
informed.
    Modern IT could certainly have assisted cemetery leadership in the 
identification of compliance shortfalls and in the management of 
cemetery operations. Ultimately though, lack of compliance was a 
leadership and management function.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. I'm absolutely beside myself to understand how this 
could happen at Arlington National Cemetery--our nation's most 
prominent symbol of honoring our veterans' combat sacrifices. That this 
could happen during two ongoing wars is unfathomable. As a veteran, I 
understand that when you have a bad unit, you have a bad leader. I 
believe in this case you also have a bad process. The lack of 
inspections and procedural rigor that resulted in discarded heroes' 
gravestones used for fill dirt, undocumented veteran remains 
surprisingly found in supposedly empty graves, misplacement of remains, 
and failure to notify family members defy belief. Are you confident 
that you have discovered all of the problems? How long until you know 
all heroes' remains entrusted to Arlington National Cemetery are 
accounted for and that their loved ones know where to find them? How 
many more surprises can we expect you to discover?
    Secretary McHugh. A primary focus of the new Executive Director is 
the establishment of an accountability baseline for the entire 
cemetery. At this time, we are unable to accurately predict whether 
other problems will be uncovered. However, we are committed to 
resolving all discrepancies as soon as possible; and if any involve 
problems other than outdated maps or administrative errors, we will 
notify the families and work to rapidly correct any issues.
    Mr. Reyes. It is a simple maxim of troop leadership that ``you get 
what you inspect, not what you expect.'' The Army knows this better 
than anyone. How could things have gotten this bad? What command 
relationships need to be changed to make Arlington National Cemetery a 
worthy steward of our fallen heroes? What should those relationships 
look like?
    Secretary McHugh. The Army is fully committed to rapidly correcting 
the management, leadership and organizational problems at ANC. These 
problems developed over many years and stemmed in large part to a 
dysfunctional organizational structure created by General Order (GO) 
13. This order created ambiguity in the cemetery's oversight 
requirements, placing responsibilities in multiple Army agencies 
including the Assistant Secretary of the Army (Civil Works) (ASA (CW)), 
the Assistant Secretary of the Army (Manpower and Reserve Affairs) (ASA 
(M&RA), the Office of the Chief Public Affairs (OCPA), as well as the 
Military District of Washington (MDW).
    As a result of the DAIG inspection, I immediately rescinded GO 13, 
established a clear chain of responsibility, and created the position 
of Executive Director (ED) of the Army National Cemeteries Program. The 
ED exercises authority, direction and control over all aspects of the 
Army National Cemeteries Program including both long-term and day-to-
day operations at ANC and the Soldiers' and Airmen's Home National 
Cemetery. The ED reports directly to the Secretary of the Army and is 
now supported by MDW, ASA(CW), ASA(MRA), and OCPA, in addition to other 
Army Staff elements as required.
    With the assistance of the ED and the Army National Cemeteries 
Advisory Commission, I will determine ANC's long term management 
structure to ensure similar lapses do not occur in the future.
    Mr. Reyes. Now that you have had time to review the findings, why 
do you believe that the operations of Arlington National Cemetery were 
not subjected to routine inspections?
    Secretary McHugh. These problems at ANC developed over many years 
and stemmed in large part to a dysfunctional organizational structure 
created by General Order (GO) 13. This order created ambiguity in the 
cemetery's oversight requirements, placing responsibilities in multiple 
Army agencies. This structure led to lapses in oversight including 
failures to periodically inspect ANC. With the establishment of the 
Executive Director (ED) for the Army National Cemeteries Program, this 
has been corrected. The new ED, Ms. Kathryn Condon, will be responsible 
for ensuring that appropriate periodic inspections occur.
    Mr. Reyes. I'm absolutely beside myself to understand how this 
could happen at Arlington National Cemetery--our nation's most 
prominent symbol of honoring our veterans' combat sacrifices. That this 
could happen during two ongoing wars is unfathomable. As a veteran, I 
understand that when you have a bad unit, you have a bad leader. I 
believe in this case you also have a bad process. The lack of 
inspections and procedural rigor that resulted in discarded heroes' 
gravestones used for fill dirt, undocumented veteran remains 
surprisingly found in supposedly empty graves, misplacement of remains, 
and failure to notify family members defy belief. Are you confident 
that you have discovered all of the problems? How long until you know 
all heroes' remains entrusted to Arlington National Cemetery are 
accounted for and that their loved ones know where to find them? How 
many more surprises can we expect you to discover?
    General Whitcomb. A primary focus of the new Executive Director is 
the establishment of an accountability baseline for the entire 
cemetery. At this time, we are unable to accurately predict whether 
other problems will be uncovered. However, we are committed to 
resolving all discrepancies as soon as possible; and if any involve 
problems other than outdated maps or administrative errors, we will 
notify the families and work to rapidly correct any issues.
    Mr. Reyes. It is a simple maxim of troop leadership that ``you get 
what you inspect, not what you expect.'' The Army knows this better 
than anyone. How could things have gotten this bad? What command 
relationships need to be changed to make Arlington National Cemetery a 
worthy steward of our fallen heroes? What should those relationships 
look like?
    General Whitcomb. The Army is fully committed to rapidly correcting 
the management, leadership and organizational problems at ANC. These 
problems developed over many years and stemmed in large part to a 
dysfunctional organizational structure created by General Order (GO) 
13. This order created ambiguity in the cemetery's oversight 
requirements, placing responsibilities in multiple Army agencies 
including the Assistant Secretary of the Army (Civil Works) (ASA (CW)), 
the Assistant Secretary of the Army (Manpower and Reserve Affairs) (ASA 
(M&RA), the Office of the Chief Public Affairs (OCPA), as well as the 
Military District of Washington (MDW).
    As a result of the DAIG inspection, I immediately rescinded GO 13, 
established a clear chain of responsibility, and created the position 
of Executive Director (ED) of the Army National Cemeteries Program. The 
ED exercises authority, direction and control over all aspects of the 
Army National Cemeteries Program including both long-term and day-to-
day operations at ANC and the Soldiers' and Airmen's Home National 
Cemetery. The ED reports directly to the Secretary of the Army and is 
now supported by MDW, ASA(CW), ASA(MRA), and OCPA, in addition to other 
Army Staff elements as required.
    With the assistance of the ED and the Army National Cemeteries 
Advisory Commission, I will determine ANC's long term management 
structure to ensure similar lapses do not occur in the future.
    Mr. Reyes. Are there bodies in the 117 graves marked as occupied on 
maps but without headstones? Are there bodies in the 94 graves that 
have headstones but are marked on maps as unoccupied? How will you go 
about conclusively solving these discrepancies while maintaining 
dignity for the remains and surviving family members?
    General Whitcomb. As of August 9, 2010, the Arlington National 
Cemetery management team has reconciled the records for all 211 
discrepancies cited in the Inspector General's report in sections 59, 
65, and 66. However, to verify that these discrepancies do not go 
beyond administrative errors, we are also using ground penetrating 
radar (GPR) to ensure complete accuracy. Once the GPR assessment is 
completed, we will share the results with Congress.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. Mr. Secretary, the IG report notes that the Cemetery 
doesn't adequately leverage information technology for its operations, 
a fact made glaringly clear by the Cemetery's reliance on paper records 
in today's digital age. Preserving the Cemetery's records and improving 
its ability to utilize those records to ensure the honorable care and 
preservation of the remains of American servicemen and women must be a 
top priority and shouldn't wait for resolution of the other issues 
identified in the report. Given the information technology available 
today, it seems the Army could move to rapidly address this problem. Is 
the Army seeking expertise from the private sector in addressing how to 
preserve and maintain Arlington's records, and if not, why?
    Secretary McHugh. Yes. We are working closely with industry 
leaders, many of whom have already offered assistance in several 
information technology (IT) areas. Each offer, however, must undergo 
both a legal and technical review prior to being accepted. If the Army 
accepts a gift, ANC staff, in coordination with the Army's Chief 
Information Officer, will determine how it fits within the new 
comprehensive IT framework under development. Rest assured, the Army 
will methodically analyze ANC's IT needs and capabilities, to ensure 
that the new system not only serves as the authoritative repository of 
burial records, but also enhances the operations, management and 
accuracy at the cemetery.
    Mr. Miller. What is the current status of ANC efforts to implement 
a computerized management system?
    Secretary McHugh. My ANC staff is consulting with the Army's 
Program Executive Office--Enterprise Information System, the Department 
of Veterans Affairs and industry experts to determine the requirements, 
integration and implementation timeline for the appropriate computerize 
management system at the cemetery. Additionally, the Army's Acquisition 
community will closely monitor and oversee the proper procurement of 
all ANC technology modernization efforts.
    Note, ANC has used the Interment Scheduling System (ISS) to 
schedule funeral services since 2003. To ensure the ISS viability 
during the information technology transition, the Army Data Center 
Fairfield is upgrading its security and auditing the system to provide 
more robust management capabilities.
    Mr. Miller. General, your report highlights Arlington National 
Cemetery's lack of a modern information technology infrastructure. 
While ANC has a plan for IT modernization, it still relies on paper 
records and manual recordkeeping processes, despite 7 years of IT 
procurements. Given the ANC's lack of IT and contracting expertise 
noted in your report, how quickly do you believe ANC can address this 
problem on its own? Would ANC benefit from collaboration with the 
private sector?
    General Whitcomb. ANC has the full support of all Army Agencies and 
the entire Army Staff in its efforts to address the discrepancies found 
in the Inspector General's Report. A key component of ANC's work is to 
address information technology (IT) shortfalls and to update its data 
management systems. The Army's Chief Information Officer completed an 
interim IT assessment and coordinated with ANC to make immediate on the 
spot corrections. The ANC staff is consulting with the Army's Program 
Executive Office--Enterprise Information System, the Department of 
Veterans Affairs and industry experts to determine the requirements, 
integration and implementation timeline for the appropriate system. 
Additionally, the Army's Acquisition community will closely monitor and 
oversee the proper procurement of all ANC technology modernization 
systems.
    Regarding the private sector, we are working closely with industry 
leaders, many of whom have already offered assistance, in several IT 
areas. Each offer, however, must undergo both a legal and technical 
review prior to being accepted. If the Army accepts a gift, ANC staff, 
in coordination with the Army's Chief Information Officer, will 
determine how it fits within the new comprehensive IT framework under 
development. Rest assured, the Army will methodically analyze ANC's IT 
needs and capabilities, to ensure that the new system not only serves 
as the authoritative repository of burial records, but also enhances 
the operations, management and accuracy at the cemetery.
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. ELLSWORTH
    Mr. Ellsworth. Secretary McHugh and Lieutenant General Whitcomb, 
thank you for coming before the Committee today to testify on the Army 
Investigation of Arlington National Cemetery. Like my colleagues on the 
Committee and in the House, as well as all Americans, I was shocked and 
saddened by reports of unmarked and improperly identified gravesites 
and improper handling of remains at Arlington National Cemetery. 
Arlington Cemetery is a solemn tribute to generations of American 
heroes who have bravely served our country. Our fallen soldiers and 
honored veterans deserve the utmost respect and admiration when they 
are laid to rest, and I was appalled to learn that for many at 
Arlington Cemetery, this was simply not the case. We need a complete 
survey of the cemetery and its operations. A comprehensive review is 
essential for assessing the full scope of the problems at Arlington 
Cemetery and rectifying these tragic errors. Your report found that 117 
gravesites were marked as occupied on burial maps but without 
headstones, and 94 had headstones but were identified as unoccupied. 
Given that the Arlington National Cemetery clearly lacked a strong 
management structure, what specifically is being done to modernize 
ANC's management structure? Please provide me with a status update of 
recent efforts to put in place a computerized management system.
    Secretary McHugh and General Whitcomb. Regarding the management 
structure at Arlington National Cemetery (ANC), I created the position 
of Executive Director Army National Cemeteries Program to oversee the 
cemetery and appointed Ms. Kathryn Condon to the post. Ms. Condon has 
extensive executive experience effectively managing and improving large 
Army organizations. I also established the ANC Provisional Oversight 
Group to review the Inspector General's findings and to develop an 
accountability baseline for all gravesites and inurnment niches at ANC.
    Regarding a computerized management system, my ANC staff is 
consulting with the Army's Program Executive Office--Enterprise 
Information System, the Department of Veterans Affairs and industry 
experts to determine the requirements, integration and implementation 
timeline for the appropriate system. Additionally, the Army's 
Acquisition community will closely monitor and oversee the proper 
procurement of all ANC technology modernization systems.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. KISSELL
    Mr. Kissell. What steps are being taken to disseminate the lessons 
being learned from the situation at Arlington National Cemetery to all 
other government cemeteries to ensure nothing like this will happen 
again?
    Secretary McHugh. Arlington National Cemetery is working 
collaboratively with the Department of Veterans Affairs and the 
Department of the Interior (National Parks Services) to address the 
findings of the DAIG report and to develop best practices. The 
Executive Director of the Army National Cemeteries Program is committed 
to working proactively and transparently with all Executive Agencies 
with similar missions.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. OWENS
    Mr. Owens. You testified that you are working on a technological 
fix to assist in your audit process. Why was such a system not 
developed earlier? Was funding sought for such an initiative in the 
past or not?
    Secretary McHugh. Under previous management, an automation plan was 
created and initially funded in the President's FY 2000 budget. This 
initiative evolved into the development of the Total Cemetery 
Management System (TCMS), which was intended to automate access to 
burial records and provide gravesite locations; support project and 
financial management; and aid in the management of supplies, equipment, 
and other administrative services.
    Unfortunately, based on interim assessment by Army Chief 
Information Officer, we have determined that TCMS as a system does not 
functionally exist at this time. Accordingly, based on this finding, 
the Executive Director, ANC immediately suspended any further 
investment in TCMS and requested the Assistant Secretary of the Army 
(Acquisition Logistics and Technology) (ASA(ALT)) to lead the 
procurement of a future Cemetery Information system. This places senior 
Army acquisition professionals in charge of developing/acquiring any 
future cemetery Information Technology products. Moreover, critical to 
this process, ANC and ASA(ALT) will fully participate in the Veteran's 
Affairs (VA) requirement development process as it begins the 3-5 year 
process to upgrade the VA Burial Operations Support System. Through 
this co-development process, ANC will ensure it can fully leverage the 
capabilities of the new system.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. CRITZ
    Mr. Critz. When will the electronic mapping system for Arlington 
National Cemetery be implemented?
    Secretary McHugh and General Whitcomb. Applying geospatial tools to 
operations at Arlington National Cemetery is a vital part of our 
restructuring plans. Electronic mapping will be integral to the overall 
information technology upgrade at the cemetery; and we will consider 
the many commercial applications, as well as other alternatives, 
available to develop such a system. Although it is impossible to 
determine precisely when it will be fully implemented, rest assured 
electronic mapping is a priority and will be achieved using appropriate 
contracting processes and procedures.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
